      Department of Homeland Security





        Federal Law Enforcement Training Center’s 

     Management Letter for FY 2012 DHS Consolidated 

                Financial Statements Audit 





OIG-13-56                                       April 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                      APR 3 2013

MEMORANDUM FOR:              Donald R. Lewis
                             Assistant Director for CFO Directorate
                             Federal Law Enforcement Training Center

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     Federal Law Enforcement Training Center’s Management
                             Letter for FY 2012 DHS Consolidated Financial Statements
                             Audit

Attached for your information is our final report, Federal Law Enforcement Training
Center’s Management Letter for FY 2012 DHS Consolidated Financial Statements Audit.
This report contains observations related to internal control deficiencies that were not
required to be reported in the Independent Auditors’ Report on DHS’ FY 2012 Financial
Statements and Internal Control over Financial Reporting. Internal control deficiencies
that are considered significant deficiencies were reported, as required, in the
Independent Auditors’ Report, dated November 14, 2012, which was included in DHS’ FY
2012 Annual Financial Report. We do not require management’s response to the
recommendations.

The independent public accounting firm KPMG LLP conducted the audit of DHS’
FY 2012 financial statements and is responsible for the attached management letter
dated March 12, 2013, and conclusions expressed in it. We do not express opinions on
DHS’ financial statements or internal control, nor do we provide conclusions on
compliance with laws and regulations.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006

March 12, 2013


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer,
U.S. Department of Homeland Security Federal Law Enforcement Training Center
Washington, DC

Ladies and Gentlemen:

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or Department) as
of September 30, 2012 and the related statements of net cost, changes in net position and custodial activity,
and combined statement of budgetary resources for the year then ended (referred to herein as the “fiscal
year (FY) 2012 financial statements”). The objective of our audit was to express an opinion on the fair
presentation of these financial statements. We were also engaged to examine the Department’s internal
control over financial reporting of the FY 2012 financial statements, based on the criteria established in
Office of Management and Budget (OMB), Circular No. A-123, Management’s Responsibility for Internal
Control, Appendix A.

Our Independent Auditors’ Report, issued on November 14, 2012, describes a limitation on the scope of
our audit that prevented us from performing all procedures necessary to express an unqualified opinion on
the DHS’ FY 2012 financial statements and internal control over financial reporting. In addition, the FY
2012 DHS Secretary’s Assurance Statement states that the Department was able to provide qualified
assurance that internal control over financial reporting was operating effectively at September 30, 2012.
We have not considered internal control since the date of our Independent Auditors’ Report.

In accordance with Government Auditing Standards, our Independent Auditors’ Report, referred to in the
paragraph above, included internal control deficiencies identified during our audit, that individually, or in
aggregate, represented a material weakness or a significant deficiency.

The Federal Law Enforcement Center (FLETC) is a component of DHS. We noted certain matters, related
to FLETC, that are summarized in the Table of Financial Management Comments on the following pages,
involving internal control and other operational matters that are less severe than a material weakness or a
significant deficiency, and consequently are reported separately to the Office of Inspector General (OIG)
and FLETC management in this letter. These comments and recommendations, all of which have been
discussed with the appropriate members of management, are intended to improve internal control or result
in other operating efficiencies. The disposition of each internal control deficiency identified during our FY
2012 audit – as either reported in our Independent Auditors’ Report, or herein – is presented in Appendix
A. The status of internal control deficiencies identified during our FY 2011 audit is presented in Appendix
B. Our findings related to information technology systems security have been presented in a separate letter
to the OIG and the FLETC Chief Information Officer.

We would be pleased to discuss these comments and recommendations with you at any time. This report is
intended for the information and use of the DHS’ and FLETC’s management, the DHS OIG, the
U.S. OMB, the U.S. Congress, and the Government Accountability Office, and is not intended to be and
should not be used by anyone other than these specified parties.

Very truly yours,



                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
                              Federal Law Enforcement Training Center
                              Table of Financial Management Comments
                                         September 30, 2012

TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)


 Comment
 Reference   Subject                                                                      Page

FMC 12-01    Deficiencies in the Financial Disclosure Reporting Process                    2
FMC 12-02    Deficiencies in the Review of Standard Form (SF)-50s                          2


APPENDIX

 Appendix    Subject                                                                      Page

    A        Crosswalk – Financial Management Comments to Active Notices of Finding and    3
             Recommendation (NFRs)
    B        Status of Prior Year NFRs                                                     4




                                                     1

                               Federal Law Enforcement Training Center
                                  Financial Management Comments
                                         September 30, 2012


FMC 12-01 – Deficiencies in the Financial Disclosure Reporting Process (NFR No. FLETC 12-01)

       During testwork over a sample of three employees who filed Office of Government Ethics (OGE)
       Form 278, Executive Branch Personnel Public Financial Disclosure Reports, and three employees
       who filed OGE Form 450, Confidential Financial Disclosure Report, in FY 2012, the following
       deficiencies were identified:
       •	 One incumbent employee’s OGE Form 278 was not signed and dated by the reviewing
           official. (We noted evidence of review on the hard copy document, but the electronic
           signature was not included on the form.)
       •	 Two incumbent employees’ OGE Form 450s were not signed and dated by the reviewing
           official in a timely manner. Evidence that initial review and request for additional information
           within 60 days of filing was not provided. The time period between the initial review,
           submission of the required information by the filers and the final signature of the ethics
           official was approximately six months.

       Recommendations:
       We recommend that Federal Law Enforcement Training Center (FLETC):
       •	 Revise its internal process to require that the reviewing attorney annotate in the comment
          section the date of the initial review and the due date for the requested information.
       •	 Initiate a more formal process for requesting the additional information as well as a suspense
          system for the files for which additional information was requested.

FMC 12-02 – Deficiencies in the Review of Standard Form (SF)-50s (NFR No. FLETC 12-03)

       During our payroll testwork, we identified two employees for which we were unable to re­
       calculate their benefit contribution amounts and noted multiple instances where we could not
       obtain adequate documentation for these two sample items.

       Recommendations:
       We recommend that FLETC:
       •	 Ensure that staff is aware of Federal Employees’ Group Life Insurance coverage eligibility
          and provide periodic training on the necessary requirements.
       •	 Maintain all benefit forms in an accessible place to ensure that benefit forms are available
          upon request and that the employee’s elections are up to date.




                                                    2

                                                                                                             Appendix A
                                  Federal Law Enforcement Training Center
                         Crosswalk – Financial Management Comments to Active NFRs
                                             September 30, 2012


                                                                                                  Disposition1
                                                                                                 IAR                 FMC
NFR No.       Description                                                               MW        SD        NC        No.
12-01         Deficiencies in the Financial Disclosure Reporting Process                                             12-01
12-02         Beginning Balance Unfilled Customer Order (UCO) Errors                     E
12-03         Deficiencies in the Review of Standard Form (SF)-50s                                                   12-02

1
 Disposition Legend:
IAR       Independent Auditors’ Report dated November 14, 2012
FMC       Financial Management Comment
MW        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC        Contributed to Non-Compliance with laws, regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR       Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and System Functionality
C         Property, Plant, and Equipment
D         Environmental and Other Liabilities
E         Budgetary Accounting
F         Entity-Level Controls
G         Grants Management
H         Custodial Revenue and Drawback
I         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
J         Federal Financial Management Improvement Act of 1996 (FFMIA)
K         Single Audit Act Amendments of 1996
L         Antideficiency Act, as amended (ADA)




                                                              3

                                                                                                                   Appendix B
                                      Federal Law Enforcement Training Center
                                              Status of Prior Year NFRs
                                                 September 30, 2012


                                                                                                  Disposition1
    NFR                                                                                                       Repeat
            Description                                                                           Closed2
    No.                                                                                                       (2011 NFR No.)
    11-01   Capitalization of Property Plant and Equipment (PP&E)                                     X


1
 KPMG was engaged to perform an audit over the DHS balance sheet as of September 30, 2012, and the related statements of net
cost, changes in net position and custodial activity, and combined statement of budgetary resources for the year then ended. In
addition, we were engaged to follow up on the status of all active NFRs that supported significant deficiencies reported in our FY
2011 Independent Auditors’ Report.
2
  The scope of our audit was limited to follow-up on NFRs that supported a material weakness or significant deficiency as
reported in our Independent Auditors’ Report. All other NFRs, e.g., that described insignificant findings, and therefore presented
to DHS management as observations for consideration, were considered closed.




                                                                4

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix C
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Federal Law Enforcement Training Center

   Director
   Assistant Director/Chief Financial Officer
   Assistant Director/Chief Information Officer
   Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                                            OIG-13-56
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
